No. 20-1088
IN THE

Supreme Court of the United States
————
DAVID and AMY CARSON, as parents and
next friends of O.C., and TROY and ANGELA NELSON,
as parents and next friends of A.N. and R.N.,
Petitioners,
v.
A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,
Respondent.
————
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the First Circuit
————
BRIEF OF EDCHOICE AS AMICUS CURIAE
SUPPORTING PETITIONERS
————
RUSSELL MENYHART
TAFT STETTINIUS &
HOLLISTER LLP
One Indiana Square
Suite 3500
Indianapolis, IN 46204
(317) 713-3500
rmenyhart@taftlaw.com

LESLIE HINER
Counsel of Record
EDCHOICE
111 Monument Circle
Suite 2650
Indianapolis, IN 46204
(317) 681-0745
leslie@edchoice.org

Counsel for EdChoice
March 11, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

iii

INTEREST OF AMICUS CURIAE .....................

1

SUMMARY ..........................................................

1

ARGUMENT ........................................................

6

I.

The Unconstitutional Underpinning of
Maine’s Town Tuitioning Prohibition
Against Sectarian Schools is Unmasked
by Its History ............................................

6

A. Dispute Over Which Bible to Read in
Public Schools Was Fueled by
Religious Bigotry 20 Years Before
Maine Adopted Town Tuitioning ........

6

B. Father John Bapst Was Tarred
and Feathered for Protecting the
Students’ Freedom of Religion ............

10

C. Different Century, Same Unconstitutional Discrimination ..........................

12

Without Intervention, Inequalities Between
States Allowing Religious Options in
Student-Aid Programs and Those Prohibiting Them Will Be Magnified ..................

16

III. Substantial Social Science Research
Reveals Why Students Seek School
Choice and Why Educational Services
Provided by Religious Entities Matter.....

17

A. School Choice Improves Academic
Outcomes and Long-Term Educational Attainment for Participating
Students ...............................................

19

II.

(i)

ii
TABLE OF CONTENTS—Continued
Page
B. Parents Consistently Express a Desire
for School Choice; Having Options to
Send Their Children to Religious
Schools Is Important ...........................

21

C. Public School Students Exposed to
School Choice Have Improved Academic
Outcomes .............................................

22

D. School Choice Has a Positive Impact
on Civic Values and Practices and on
Racial and Ethnic Integration ............

23

CONCLUSION ....................................................

24

iii
TABLE OF AUTHORITIES
CASES

Page(s)

Donahoe v. Richards,
38 Me. 379 (1854) ............................ 9, 10, 11, 12
Espinoza v. Montana Dep’t of Revenue,
140 S. Ct. 2246 (2020) ..............................passim
Mitchell v. Helms,
530 U.S. 793 (2000) ...................................

12

Oliver, Jr. v Barresi,
No. CV-2013-2072, 2014 WL 12531242
(Okl.Dist. Sep. 10, 2014) ............................

17

Oliver v. Hofmeister,
368 P.3d 1270 (Okla. 2016) ......................

17

Sch. Dist. of Abington Twp., Pa. v. Schempp,
374 U.S. 203 (1963) ...................................

3

Trinity Lutheran Church of Colombia, Inc.
v. Comer,
137 S. Ct. 2012 (2017) ............................... 15, 16
CONSTITUTION
U.S. Const. amend. I ...................................passim
OTHER AUTHORITIES
D. Brock Hornby, History Lessons: Instructive Legal Episodes from Maine’s Early
Years – Episode 2 (Nov. 15, 2020),
available at http://dx.doi.org/10.2139/ss
rn.3731150 ................................................

10

Dastardly Outrage in Ellsworth, ME, The
Liberator (Boston), Oct. 27, 1854 .............

10

iv
TABLE OF AUTHORITIES—Continued
Page(s)
David Dzurec, “To Destroy Popery and
Everything Appertinent Thereto”: William
Chaney, the Jesuit John Bapst, and the
Know-Nothings in Mid-Nineteenth Century
Maine, 103(1) Catholic Historical Review
73 (2017) .................................................. 7, 9, 10
EdChoice, ABCs of School Choice (2021),
available at https://www.edchoice.org/
wp-content/uploads/2021/01/2021-ABCs-ofSchool-Choice-WEB-2-24.pdf .....................

18

EdChoice, Empirical Research Literature on
the Effects of School Choice, https://
www.edchoice.org/school-choice/empiricalresearch-%20literature-on-the-effects-ofschool-%20choice/ .....................................passim
Mass Meeting in Ellsworth, Bangor Daily
Whit and Courier, Oct. 28, 1854 ..............

11

Emily Burnham, 164 Years Ago this Bangor
Priest Was Tarred, Feathered, and
Ridden on a Rail, Bangor Daily News,
June 19, 2018 ............................................

5

Father Gavazzi on American Schools,
Bangor Daily Whig and Courier, Dec. 10,
1853 ...........................................................

9

Frederick Whittaker, Another Viewpoint:
Church and State, Bangor Daily News,
June 26, 1980 ............................................

15

Fr. John Bapst: A Sketch, Woodstock
Letters, vol. 18 (1889), available at
http://jesuitarchives.org/woodstock-letters/
#woodstock018 ...........................................

8

v
TABLE OF AUTHORITIES—Continued
Page(s)
Greg Forster, A Win-Win Solution: The
Empirical Evidence on School Choice
(3rd ed. 2013) ............................................

20

Greg Forster, A Win-Win Solution: The
Empirical Evidence on School Choice
(4th ed. 2016), available at http://www.
edchoice.org/wp-content/uploads/2016/05/
A-Win-Win-Solution-The-EmpiricalEvidence-on-School-Choice.pdf ..... 18-19, 20, 23
Horace Mann, Twelfth Annual Report of the
Secretary of the Board of Education of
Massachusetts (1849) ................................

2

Jason Bedrick & Lindsey Burke, Surveying
Florida Scholarship Families (2018),
available at https://www.edchoice.org/wp
-content/uploads/2018/10/2018-10-Survey
ing-Florida-Scholarship-Families-byJason
-Bedrick-and-Lindsey-Burke.pdf ..............

22

John B. Sayward, Editorial, Bangor Daily
Whig and Courier, Dec. 5, 1853 ...............

3

John Bapst Memorial School: Mission and
History, https://www.johnbapst.org/about/
mission-and-history/ ................................. 14, 15
Jonathan Mills & Patrick Wolf, The Effects
of the Louisiana Scholarship Program on
Student Achievement After Three Years
(2017) .........................................................

20

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Maine Legislature, Proposed Constitutional Legislation 1820 - , available at
https://legislature.maine.gov/doc/502 ........

13

Mark Paul Richard, “This Is Not a Catholic
Nation”: The Ku Klux Klan Confronts
Franco-Americans in Maine, 82 New
England Q. 285 (June 2009) .....................

13

Paul DiPerna & Michael Shaw, 2020
Schooling in America (2020), available at
https://www.edchoice.org/wp-content/uploa
ds/2020/12/2020-SIA-Wave-2-Final.pdf .....

21

Raney Bench, History of Maine – The
Rising of the Klan, Maine History
Documents (2019), https://digitalcomm
ons.library.umaine.edu/mainehistory/224

12

The Housekeeper’s Account of Events at
Ellsworth, Woodstock Letters, vol. 18
(1889) .........................................................

9

INTEREST OF AMICUS CURIAE1
EdChoice is a 501(c)(3) nonpartisan, nonprofit organization and a national leader in educational-choice
research, legal defense and education, fiscal analysis,
policy development, and educational training and
outreach. The mission of EdChoice is to advance
educational freedom and choice for all as a pathway to
successful lives and a stronger society. EdChoice
supports school choice policies that recognize the right
of families to direct their children’s education, by
empowering families with financial support and freedom
of choice necessary to access educational opportunities
that best fit the needs of their children—whether
that’s a public school, private school, charter school,
home school or any other learning environment.
EdChoice respectfully asks this Court to grant the
petition in this matter and determine whether a state
that prohibits eligible students from choosing schools
providing “sectarian” instruction in an otherwise
generally available student-aid program violates the
Religion Clauses or Equal Protection Clause of the
United States Constitution.
SUMMARY
Our nation’s founders sought freedom from religious
bigotry and the liberty to worship freely and openly,
according to each person’s conscience. Education plays

1

Pursuant to Sup. Ct. R. 37.6, none of the parties to this case
nor counsel for any party authored this brief, in whole or in part,
and no entity or person made any monetary contribution for the
preparation or submission of this brief. Pursuant to Sup. Ct. R.
37.2(a), counsel for the parties received timely notice of this filing
and all parties have consented to the filing of this brief.

2
an important role in encouraging our children to think
about issues as weighty as liberty and religion.
That is an important task, because it is often
difficult for people and institutions to discern what
is, or is not, religious bigotry. Thankfully, at times
this Court has an opportunity to deliver guidance on
adherence to our constitutional precepts, including
freedom of religion. This petition is such an opportunity.
Given the many benefits of school choice for students,
as shown by the school-choice research summarized in
Part III of this brief, this petition also provides this
Court with an opportunity to give states clearer
guidelines on how they can offer students the widest
possible range of educational options without fearing
a barrage of constitutional challenges.
When systems of public schools were established, it
was common for such schools to adopt and promote
what school leaders believed were generally accepted
principles of common good and shared values. This
idea was promoted by Horace Mann, an early public
education visionary who believed public schools would
eliminate any semblance of a class system, as existed
in other parts of the world. Mann further advocated
for including the King James Bible in public education
as a means of instilling Christian morals in children
through the common schools. By adopting Protestantism
as the foundation for those ideals, common schools
could avoid acting “as an umpire between hostile
religious opinions.” Horace Mann, Twelfth Annual
Report of the Secretary of the Board of Education of
Massachusetts 117 (1849). This is no doubt true; if no
other religious viewpoint is tolerated, enforcing only
one religious viewpoint requires no umpire. However,
it is curious that this idea of government choosing one
type of religious instruction for all children was seen

3
as acceptable. If all students were to attend common
schools, it begs the question of what result, or
educational opportunity, was expected for children
who held different religious beliefs.
Like many states, Maine’s public schools from their
inception through much of the 1900s included daily
prayer and reading of a common Bible, most often the
King James Version. As editorialized by the Bangor
Daily Whig and Courier:
The Bible has been generally read in the
common schools of New England, from the
birth of such. It makes a part of the system,
and will be the last book abandoned. It is the
great charter of free thought, and one might
as well pluck out the right eye of a New
Englander as to exclude the Bible from the
public schools. In no place has it yet been
done, and in no place will it be done, until the
race shall degenerate to a point far below par,
and below zero.
John B. Sayward, Editorial, Bangor Daily Whig and
Courier, Dec. 5, 1853, p. 2, col. 1.
Sayward was perhaps spared the need to pluck out
an eye because reading from the Bible in public schools
was not decreed unconstitutional by this Court until
110 years after he wrote those words. Sch. Dist. of
Abington Twp., Pa. v. Schempp, 374 U.S. 203 (1963).
Today in Maine, schools operated by or affiliated
with religious organizations are eligible to accept town
tuitioning dollars from a student only if the school does
not promote or advance religious beliefs (while also
meeting general requirements for private schools).
The state alleges that it is not the status of the schools
as religiously affiliated or operated entities that

4
matters, but whether the school will provide an
education “comparable” to a free public education.
Embedded in this assertion is the presumption that an
education provided by teachers who deliver instruction from a religious viewpoint is not “comparable”—
in other words is inferior to—an education that avoids
religious principles.
Under this policy, the goal of providing education in
Maine is not necessarily to give a child the opportunity
to learn in an environment that is preferred by
the student. On the contrary, it ensures that town
tuitioning will never support a child who freely
chooses a school where learning is touched by religious
principles—even though a student’s religious beliefs
may be an integral part of the student’s perspective on
life and learning.
Given that for its first 100 years Maine students
attended public schools that promoted Protestantism,
it must be asked whether the creeping resistance to
religious instruction in education was rooted in constitutional principles or in a less honorable opposition to
other religions. In his concurring opinion in Espinoza
v. Montana Dep’t of Revenue, Justice Thomas opined
that, “Historical evidence suggests that many advocates
for this separationist view were originally motivated
by hostility toward certain disfavored religions.” 140
S. Ct. 2246, 2266 (2020) (Thomas, J., concurring).
This historical reading has particular relevance in
Maine. In 1854, Father John Bapst, a Jesuit priest,
was tarred, feathered, and run out of town on a rail for
helping Catholic students in public schools challenge
the rule that only the King James Bible could be used
for classroom recitation of the Bible, which was then
part of the curriculum. Any student who sought to use
the Catholic Bible was subject to expulsion for using a

5
Bible not recognized by the school as Protestant. Emily
Burnham, 164 Years Ago this Bangor Priest Was
Tarred, Feathered, and Ridden on a Rail, Bangor
Daily News, June 19, 2018. This anti-Catholic
sentiment continued to present itself visibly in Maine
in the decades ahead. In the 1920s, the rise of the Ku
Klux Klan in Maine was fueled by a desire to prohibit
town tuitioning support for non-Protestant schools.
This historical resistance to other religions influences town tuitioning policy to this day. In 1980,
Maine’s attorney general opined that allowing a student
using town tuitioning dollars to attend a “sectarian”
school would be unconstitutional under the federal
constitution. Although direct evidence has not been
found linking the attorney general’s opinion in 1980
with any renewed increase in anti-Catholic or antireligion activity in the 1980s, anti-religion sentiments
can surge periodically. We do know that the legislature acted swiftly to prohibit students from accessing
religious schools, which suggests it had significant
constituent support.
Students and families fought for religious freedom
in 19th century Maine, and public school constraints
were used to prevent them from exercising their
religion. In 21st century Maine the terminology and
systems may have changed, but town tuitioning
constraints still inhibit students’ free exercise of
religion and block towns from including religious
schools as choices for education funding, based on a
misconstrued interpretation of the Establishment
Clause. Whether the motives are the same or different,
good-hearted or ignoble, conscious or unconscious, the
result is still unconstitutional restraints on religious
freedom. In turn, those restraints limit school-choice
options that we know help students succeed, as shown

6
in the quantitative research summarized in Part III of
this brief.
Justice Thomas’s historical reflection in Espinoza is
well-supported by the facts in Maine, as will be
illustrated in greater detail below.
ARGUMENT
I. The Unconstitutional Underpinning of
Maine’s Town Tuitioning Prohibition
Against Sectarian Schools is Unmasked by
Its History.
Bigotry against religion plays an important role in
explaining the significance of this litigation and the
challenges under the Establishment Clause that continue
to this day. Maine’s history is riddled with animus
against students with sectarian religious beliefs, rising
and falling in intensity over many generations. In the
years preceding adoption of Maine’s town tuitioning
method of funding elementary and secondary education,
Catholic animus surfaced against Father John Bapst
in a gruesome manner that sparked nationwide condemnation. This was merely the first indication of future
collisions between public funding of a student’s education and the student’s choice to receive education in a
religious environment.
A. Dispute Over Which Bible to Read in
Public Schools Was Fueled by Religious
Bigotry 20 Years Before Maine Adopted
Town Tuitioning.
Several Catholic students were expelled from the
public school in Ellsworth, Maine, in 1853 for refusing
to read from the English Protestant Bible, which
was part of their required curriculum. This act fueled
litigation and ignited long-simmering resentment
towards Catholic immigrants, culminating in extreme

7
violence against a Catholic priest, Catholic school, and
Catholic church.
In January of 1853, a young, dedicated Jesuit priest
from Switzerland, Father John Bapst, was directed to
move to Ellsworth to continue what had been his
successful religious work in northeast Maine. Father
Bapst was a personable, inspirational teacher of the
faith. He convinced many locals to join the faith and
oversaw construction of a bigger church shortly after
his arrival. David Dzurec, “To Destroy Popery and
Everything Appertinent Thereto”: William Chaney, the
Jesuit John Bapst, and the Know-Nothings in MidNineteenth-Century Maine, 103(1) Catholic Historical
Review 73, 78 (2017) (hereinafter Dzurec).
Father Bapst’s success in converting several young
women from prominent Protestant families was disconcerting to local ministers, who denounced Bapst
from their pulpits. The ministers warned Father
Bapst to stop proselytizing and “reducing free-born
Americans to Rome’s galling yoke.” Id. at 82-83.

Photo: New England Historical Society

8
Further acrimony occurred when Catholic students
attending the public school told Father Bapst that
they were being forced to read from the Protestant
Bible in school. Before the start of the new school year
in 1853, Bapst advised the Catholic students that they
should decline to read the Protestant Bible and refuse
to say prayers not approved by the Catholic Church.
In October, the Ellsworth school committee passed a
law mandating the reading of the Protestant Bible by
all students in school. In response, Father Bapst
gathered the signatures of over 100 Catholic parents
and presented it to the school committee for reconsideration. Id. at 84. Rejecting the petition, one of the
school committee members stated, “We are determined to protestantize the Catholic children; they
shall read the Protestant Bible or be dismissed from
the schools; and should we find them loafing around
the wharves we will clap them into jail.” Fr. John
Bapst: A Sketch, Woodstock Letters, vol. 18, 129, 134
(1889), available at http://jesuitarchives.org/woodstockletters/#woodstock018.
On November 14, 1853, sixteen Catholic students
who refused to read the Protestant Bible in school
were expelled. In response, Father Bapst opened a
school for the Catholic children. As Bapst wrote in his
notes, “I was therefore obligated to provide means of
instruction for these dear little confessors of Christ. I
opened a Catholic school in our old chapel.” Id.
Shortly after the Catholic students were expelled for
refusing to read a Bible not of their faith, an argument
familiar to those participating in modern educational
choice debates was heard: if Catholics wanted to read
their own Bible, and keep their students in “blindness,
ignorance, and slavery… [then] they should not have
the right to the school fund of American schools. If they

9
will have Roman Catholic schools, let them pay their
teachers.” Father Gavazzi on American Schools, Bangor
Daily Whig and Courier, Dec. 10, 1853, p. 1, col. 7.
The father of Bridget Donahoe, one of the expelled
students, billed the state for his daughter’s tuition.
After the state failed to respond, in April 1854, Mr.
Donahoe sued the Ellsworth school committee. The
lower court referred the case to the Maine Supreme
Court to determine whether there was sufficient basis
in law for the lower court to try the case. Donahoe v.
Richards, 38 Me. 379 (1854).
After the lawsuit was filed, Father Bapst faced
tremendous public pressure. This was fueled primarily
by the editor of a local newspaper, the Ellsworth
Herald, who was also a leader of the Know Nothing
political party. Dzurec, supra, at 81, 88. As eloquently
explained by Justice Alito in Espinoza, the mission of
the Know Nothings was to diminish the political
strength and civic acceptance of immigrants and
Catholics. Espinoza v. Montana Dep’t of Revenue, 140
S. Ct. at 2269 (Alito, J., concurring). As the Herald
editor continuously stoked the flames of conflict, on
June 3, 1854, a mob stormed into Father Bapst’s home;
finding him absent, they harassed his housekeeper
and broke all the windows. The Housekeeper’s Account
of Events at Ellsworth, Woodstock Letters, vol. 18, 136,
138 (1889). On June 6, windows in the new Catholic
church were broken. On June 7, Bishop Fitzpatrick of
Boston ordered Father Bapst to leave Ellsworth. Id.
On June 13, a canister of gunpowder exploded at
the front door of the Catholic school building, breaking
all the glass in the building, in an attempt to destroy
the school. At a town meeting on July 8, nativists
elected new selectmen and passed a resolution threaten

10
ing to give Bapst “an entire suit of new clothes such as
cannot be found at the shops of any Tailor; and that
when thus appareled, he be presented with a free
ticket to leave Ellsworth upon the first railroad operation that may go into effect.” Dzurec, supra, at 90.
At the same town meeting, the selectmen appropriated money to fight the Donahoe case and hired
Richard Henry Dana Jr., a famous New England
lawyer, to represent them. The case was argued on
July 22, 1854. D. Brock Hornby, History Lessons:
Instructive Legal Episodes from Maine’s Early Years –
Episode 2 (Nov. 15, 2020), available at http://dx.doi.
org/10.2139/ssrn.3731150.
B. Father John Bapst Was Tarred and
Feathered for Protecting the Students’
Freedom of Religion.
While awaiting a ruling from the Court, a most
horrific event occurred: the newly elected selectmen of
Ellsworth made good on their earlier promise, and
Father Bapst was tarred and feathered on October 14,
1854.
As reported by the local press, Father Bapst stopped
in Ellsworth to celebrate Mass one Sunday on his way
to another town. Local “ruffians” learned he was in
town and mobbed him while he was walking to a
friend’s home. Bapst was robbed of his watch and
wallet, then stripped, his coat torn “in a thousand
pieces,” “denuded,” and covered in tar and feathers. He
was then mounted on a rail and dumped at a shipyard
a half-mile away. While suffering this violence, his
attackers mocked him, asking, “Will the Virgin Mary
save you?” Pleas to hang him were quieted by the
leader of the mob. Dastardly Outrage in Ellsworth,
ME, The Liberator (Boston), Oct. 27, 1854, p. 3, col. 5.

11
Father Bapst was abused in such a vile manner
because he not only helped students defy the public
school board when faced with a curriculum forcing
them to deny their own faith, but also helped them
leave the public school as soon as he could offer an
alternative school aligned with their values that
offered safety from such commonplace brutish antiCatholic scorn and abuse.
Newspapers across the country denounced the
incident. However, this did little to dissuade the deeprooted local bigotry against Catholics and immigrants.
On October 24, 1854, the town of Ellsworth held a
“Mass Meeting” and published the minutes. Mass
Meeting in Ellsworth, Bangor Daily Whit and Courier,
Oct. 28, 1854, p. 2, col. 3. In addressing the violence
against Father Bapst, they first referenced him as a
man who had been forced out of town for “treasonable
interference with our free schools.” Id. Next, they
regretted the unhappiness of the people of Ellsworth,
and the return of the “designing Jesuit” with “indiscretion and bravado” after making himself “so exceedingly
obnoxious to all respectable Protestants and true
lovers of their country.”2 Id.
The Maine Supreme Court issued its ruling in
Donahoe on May 30, 1855, upholding the power of local
school boards to decide what books should be read.
2

The diligent town scribe went on to note that the Town
affirmed the sacred birthright of the Puritan fathers whose blood
purchased freedom, including free school with free use of the
Bible, that the Pope had “intriguing schemes” with “allies, falsehearted, truth-economizing, treacherous office-holders, officeseekers, and their lick-spittles,” and that the town residents were
ready to “shoulder our muskets” to fight for more liberty and
frowned on “wire-pulling demagogues” who supported the “treasonable efforts” of John Bapst. Mass Meeting in Ellsworth, supra.

12
Donahoe v. Richards, 38 Me. 379. In a nutshell, the
Maine Supreme Court held that Catholic students
(and, implicitly, students of other faiths) could be
compelled to read the Protestant version of the Bible
in public school. Id.
Local violence did not abate after this ruling. In
1856, the Catholic church that Father Bapst built in
Ellsworth was burned by a mob. Father Bapst was not
the only Catholic to face extreme discrimination. In
1854 in Bath, Maine, when an anti-Catholic speaker
was addressing an audience of over 1,000 people, the
crowd became so over-zealous that they marched to
the relatively new Irish Catholic church, smashed
pews, and set fire to the church. Just one year later, a
congregation was chased away and beaten when the
Bishop of Portland set the cornerstone for their
church. Raney Bench, History of Maine – The Rising
of the Klan, Maine History Documents 224 (2019),
https://digitalcommons.library.umaine.edu/
mainehistory/224 (last visited Mar. 8, 2021).
C. Different Century, Same Unconstitutional Discrimination.
The bigotry of the 19th century set the stage for the
20th century, and beyond. Tensions sometimes subsided,
but were never resolved.
James G. Blaine, arguably Maine’s most famous
19th century politician, worked relentlessly in the mid
to late 1800s to ensure that states would not allow
public funding to flow to “sectarian” schools; the
primary goal of this effort was to bar public financial
support for Catholic parochial schools at a time of
“pervasive hostility” toward all Catholics. Mitchell v.
Helms, 530 U.S. 793, 828 (2000). Blaine’s unsuccessful
efforts to amend the federal constitution led him to

13
pursue state-by-state adoption, and clauses inserted
in many state constitutions in the late 1800s that
prohibited public funds from going to sectarian schools
became commonly known as “Blaine Amendments.”
This laid fertile ground for the rise of the Ku Klux
Klan, which, like the Know-Nothings of the 19th
Century, was hostile to immigrants and Catholics (or
any religion that was not mainstream Protestant). The
Klan renewed Blaine’s arguments and slowly gained
momentum. In 1920s Maine, anti-Catholic and antiimmigration activity began to flourish. The Klan is
widely credited with electing a governor and placing a
restrictive Blaine amendment on the ballot. Mark
Paul Richard, “This Is Not a Catholic Nation”: The Ku
Klux Klan Confronts Franco-Americans in Maine, 82
New England Q. 285, 295-296, 301 (June 2009).
Legislative efforts to craft a sectarian limitation
were successful in 1925, when the Maine Legislature
enacted a bill requiring a constitutional referendum
with this language: “Shall the Constitution be Amended
as Proposed by a Resolution of the Legislature,
Prohibiting the Use of Public Funds for Other Than
Public Institutions and Public Purposes?” Maine
Legislature, Proposed Constitutional Legislation 1820
- , at 19, available at https://legislature.maine.
gov/doc/502 (last visited Mar. 8, 2021). However,
when this question was put to the voters in a
referendum in September 1926, Mainers rejected the
amendment by a vote of 94,148 to 65,349. Id. The
Ku Klux Klan’s influence in Maine waned markedly
thereafter. On the heels of this turmoil, the Catholic
church opened a new school on September 20, 1928, in
Bangor, paying tribute to the brave Father John
Bapst. John Bapst Catholic High School quickly
became one of the most sought after schools in the

14
northeast. John Bapst Memorial School: Mission and
History, https://www.johnbapst.org/about/mission-and
-history/ (last visited Mar. 8, 2021).
In a stroke of bitter irony, in 1980 the Maine
attorney general decided that town tuitioning that
permitted students to choose sectarian schools must
conflict with the federal constitution. Soon after his
opinion was shared with the legislature, the law was
changed, and sectarian schools were excluded from
town tuitioning.
John Bapst High School was clearly sectarian. At
the time it was an extremely popular school with
locals, many of whom relied on town tuitioning money
to pay tuition. As a result of the new Maine
restrictions, John Bapst High School was compelled to
pick one of two bad choices:
1. Renounce its Catholic affiliation and teachings
and adopt a secular curriculum prescribed by the
state, or
2. Remain a practicing Catholic school and continue
to cherish their faith until compelled to close as
enrollment and tuition dwindled.
The school stood at a precipice that seemed jarringly
similar to 126 years before. In 1854, Father John
Bapst was run out of town because he was Catholic
and objected to the idea that Catholic children should
be compelled to attend public school and turned into
Protestants. John Bapst Catholic High School opened
in 1928 to honor the memory of Father Bapst, but was
then compelled to close because the state feared it
would violate the First Amendment if students could
use town tuitioning funds to attend a sectarian school
of the student’s own choice.

15
John Bapst Catholic High School closed permanently in June 1980. Later that year, a completely
secular school opened as the John Bapst Memorial
High School, where no hint of Catholic teaching or any
other spiritual talk or activity is permitted. In 1988, the
new non-religious college preparatory school bought
the building from the diocese. Id. The end of one of the
most outstanding Catholic schools in New England
was complete. The non-religious school is excellent,
but those students who prefer a school of faith must
look elsewhere.
One hundred and sixty-seven years after John Bapst
was tarred and feathered, the pattern continues.
Whether the attorney general’s 1980 opinion was
written based on animus or a misguided view of First
Amendment law, it is clear that action from this Court
is needed to clarify our understanding of the First
Amendment, with special emphasis on the Establishment
Clause. As Frederick Whittaker, past president of
Bangor Theological Seminary, has written, “If nothing
else positive comes from the John Bapst situation, at
least it has dramatized the need for a re-examination
of the 200-year-old American concept of ‘separation’
of church and state.” Frederick Whittaker, Another
Viewpoint: Church and State, Bangor Daily News, June
26, 1980, p. 16, col. 4.
In Trinity Lutheran, this Court decided that a
state policy of denying playground resurfacing grants
to religiously affiliated applicants violated the
Free Exercise Clause by forcing a religiously affiliated
daycare to choose between “participat[ing] in an otherwise available benefit program or remain a religious
institution.” Trinity Lutheran Church of Colombia,
Inc. v. Comer, 137 S. Ct. 2012, 2021-22 (2017). This
reasoning is relevant here. When states exclude reli-

16
gious options from school-choice programs, religiously
affiliated schools like the formerly Catholic John
Bapst High School are faced with the same choice as
the daycare in Trinity Lutheran—participate in the
program or retain a religious identity. Likewise,
students are forced to choose between participating in
a program for which they qualify or attending the
religious school of their choice.
II. Without Intervention, Inequalities Between
States Allowing Religious Options in
Student-Aid Programs and Those Prohibiting Them Will Be Magnified.
The mythical phrase “separation of church and
state” is held like a dagger over the heads of those who
wish to worship and instruct their children in the
values of their faith, in peace. This term is used too
often to threaten school-choice programs, private
schools who fear government intervention in curriculum and expression of faith, or parents that allow their
children to learn anything different than what is
taught in public schools.
Thanks to this Court’s decision in Espinoza, many
legislators in the 37 states with Blaine Amendments
are thrilled to be working anew on developing school
choice programs. However, the possibility of being
sued based on religious use of program funding
presents a new opportunity for detractors to convince
legislators to exclude religious schools from educational choice programs. Despite the copious research
showing benefits of school choice, as outlined in Part
III, infra, state legislatures may choose not to pursue
such desired policies due to the lack of constitutional
clarity.

17
Oklahoma’s constitution has long been considered
to have among the most restrictive provisions relative
to student-aid programs, yet a recent battle in the
Oklahoma courts over a voucher program for children
with disabilities exemplifies the uncertainties resulting
from the lack of clarity on First Amendment issues
in the educational funding context. When taxpayers
challenged the voucher program as violating the
Oklahoma Constitution, a lower court ruled that the
program was unconstitutional. Oliver, Jr. v Barresi,
No. CV-2013-2072, 2014 WL 12531242, at *1 (Okl.Dist.
Sep. 10, 2014). After years of litigation, the state
supreme court found that the purpose of the state
constitution’s “no aid” clause is to keep churches free
from state control, not to prevent religious influence or
any flow of public funds to a religious institution.
Oliver v. Hofmeister, 368 P.3d 1270, 1275-76 (Okla.
2016). In dismissing the challenge to the voucher
program, the court opined, “We are satisfied that
under this scenario, the State is not adopting sectarian
principles or providing monetary support of any
particular sect.” Id. at 1277. But similar litigation at
the state and federal level will continue until this
Court provides clarity as to the application of the
Establishment Clause and Free Exercise Clause in the
context of religiously neutral educational funding.
III. Substantial Social Science Research
Reveals Why Students Seek School Choice
and Why Educational Services Provided
by Religious Entities Matter.
EdChoice’s core mission includes compiling research
data regarding educational choice programs nationwide.
Notwithstanding all-too-frequent legal challenges, state
legislatures continue to regularly introduce, enact, and
expand school-choice programs based on constituent

18
demand. See EdChoice, ABCs of School Choice 139-144
(2021), available at https://www.edchoice.org/wp-con
tent/uploads/2021/01/2021-ABCs-of-School-Choice-WEB2-24.pdf. At least one state has enacted a new
educational-choice program every year since 2003, and
over 1.2 million students and families are served by 67
programs in 29 states, the District of Columbia, and
Puerto Rico. Id. at 7, 13, 25, 85, 135. These programs
include tax-credit scholarships, vouchers, education savings accounts, and individual tax credits or deductions.
The ongoing state government policy debates about
educational choice are unnecessarily constrained by
the constitutional uncertainty about what policies
are permissible under the federal constitution. This
Court’s clear and convincing decision in Espinoza v.
Montana Dep’t of Revenue, 140 S. Ct. 2246 (2020),
greatly improved state leaders’ understanding of the
Free Exercise Clause and the blatant bigotry of state
Blaine amendments. However, the siren song of “separation of church and state” continues to push elected
state officials into the murky abyss of uncertainty
regarding the Establishment Clause. Elected and
appointed officials must continue to thread a moving
needle as different courts interpret and apply this Court’s
prevailing First Amendment case law differently.
As the number of educational-choice programs and
participants has increased nationwide, the body of
empirical research on school choice has similarly
expanded. Studies of choice programs throughout the
United States overwhelmingly reflect a common conclusion: choice leads to measurable educational benefits
for many students, is neutral for others, and does
not harm any group of students or schools. Greg
Forster, A Win-Win Solution: The Empirical Evidence
on School Choice 1 (4th ed. 2016) available at

19
http://www.edchoice.org/wp-content/uploads/2016/05/A
-Win-Win-Solution-The-Empirical-Evidence-on-School
-Choice.pdf (hereinafter 2016 Forster Report).
A. School Choice Improves Academic
Outcomes and Long-Term Educational
Attainment for Participating Students.
School-choice programs are most compelling for
their proven ability to improve academic outcomes.
Empirical studies have examined the effect of school
choice on student performance using the randomassignment method, the “gold standard” of social
science research.3 2016 Forster Report, supra, at 10.
Of 17 empirical studies to date, 11 found choice
improves student outcomes and 4 found no visible effect.
EdChoice, Empirical Research Literature on the Effects
of School Choice, slide 9 (hereinafter Empirical
Research on School Choice), https://www.edchoice.org/
school-choice/empirical-research-%20literature-on-theeffects-of-school-%20choice/ (last visited Mar. 8, 2021).4
Two analyses of Louisiana’s voucher program found a
negative average outcome for all or some groups of

3

Random-assignment studies are possible where there are
more applicants for a choice program than there are slots,
generally resulting in a random lottery for the slots. Students
who win the lottery and are offered choice can be compared to
those who were not offered choice. Any systemic differences can
be attributed to the offer of choice alone, because nothing separates
the group but the offer of choice and randomness. 2016 Forster
Report, supra, at 10.
4

EdChoice’s Empirical Research Literature on the Effects of
School Choice web page summarizes the empirical research on
school choice, with the individual studies underlying the
aggregated data cited to on the web page.

20
students, as did one analysis of the Washington D.C.
voucher program.5 Id.
A long-term study of a privately funded voucher
program for low-income elementary school students in
New York City in the late 1990s found that AfricanAmerican students who were offered vouchers in
elementary school were 20% more likely to attend
college within three years of their expected high-school
graduation date. Greg Forster, A Win-Win Solution:
The Empirical Evidence on School Choice 8 (3rd ed.
2013). They were also 25% more likely to attend
college full-time and 130% more likely to attend a
selective four-year college. Id. Three recent randomassignment studies of New York City voucher
programs found that school choice has a positive effect
on college enrollment and attainment rates for some
or all participating students and no negative effect for
any student group. 2016 Forster Report, supra, at 11.
Equally as important as academic improvement is
what happens after secondary schooling is completed.
Out of six studies of student attainment, four found
that private school-choice program participants experienced a positive increase in educational attainment,
as measured by graduation rates, college enrollment,
and college completion. Empirical Research on School
Choice, supra, slide 14. Two analyses found no visible
effect, and none found negative effects for any groups
of students. Id. Overall, the empirical evidence demonstrates a largely positive effect of school choice on
participating students, which logically leads to higher
5

EdChoice analysis interprets one study, Jonathan Mills &
Patrick Wolf, The Effects of the Louisiana Scholarship Program
on Student Achievement After Three Years (2017), to have found
both positive and negative results.

21
graduation rates and increased rates of postsecondary education. Such outcomes are the hallmark
of responsible public policy.
B. Parents Consistently Express a Desire
for School Choice; Having Options to
Send Their Children to Religious
Schools Is Important.
Parents know what they want, but often are not able
to access the educational environment they most desire
for their children. EdChoice’s comprehensive educational
choice public opinion survey, conducted annually, has
shown a consistent desire for private school options
despite a large majority of children remaining in
public district schools. Paul DiPerna & Michael Shaw,
2020 Schooling in America (2020), available at https://
www.edchoice.org/wp-content/uploads/2020/12/2020-SIAWave-2-Final.pdf. In the 2020 survey, when asked
what type of school they would select if given the option,
current parents’ first choice was private school (41%),
followed by public district school (33%), public charter
school (13%), and home schooling (12%). Id. at 61.
Given such parental aspirations, actual enrollment is
quite remarkable: 83% in public district school, 8% in
private school, 5% in public charter school, and 3%
home school. Id.
Parents with access to school-choice programs, most
of which include religious schools, are generally satisfied with their choices. Twenty-eight out of 30 surveys
of parents whose children participate in school-choice
programs have found positive outcomes for parental
satisfaction; one found no visible effect and two found
both positive and negative effects. Empirical Research
on School Choice, supra, slide 19. The largest-ever
survey of parents participating in a private schoolchoice program found that a school’s religious environ-

22
ment and instruction was the most important factor
for parents choosing a school. Jason Bedrick & Lindsey
Burke, Surveying Florida Scholarship Families 2 (2018),
available at https://www.edchoice.org/wp-content/uplo
ads/2018/10/2018-10-Surveying-Florida-Scholarship-Fa
milies-byJason-Bedrick-and-Lindsey-Burke.pdf. When
Bedrick and Burke asked over 14,000 parents participating in Florida’s tax-credit scholarship program
which factors most influenced their decision to choose
a particular school, 66% said “religious environment/
instruction” and 52% said “morals/character/values
instruction.” Id. at 18. These two factors far outranked
other considerations. The next three considerations
were “safe environment” at 39%, “academic reputation” at 34%, and “small classes” at 31%. Id.
C. Public School Students Exposed to
School Choice Have Improved Academic
Outcomes.
When public schools know that students can use
educational-choice funding to enroll elsewhere, they
have a powerful incentive to improve performance to
retain and attract students. There is now sufficient
rigorous academic research to support this theory.
Empirical studies show that the positive effect of
school choice on public school performance is at least
as strong as the effect on children who are offered
choice. Of 28 relevant studies, 26 have found that
school choice improves public schools, one found no
visible effect, and one found a negative effect. Empirical
Research on School Choice, supra, slide 25.

23
D. School Choice Has a Positive Impact on
Civic Values and Practices and on
Racial and Ethnic Integration.
Another line of research examines the impact of
school choice on civic values and practices. To date, 11
studies have been completed: 6 found school choice has
a positive impact, 5 studies showed no visible impact,
and no study has shown school choice to have a
negative effect. Empirical Research on School Choice,
supra, slide 31. In one recent study, researchers found
higher levels of political tolerance, civic skills, future
political participation, and volunteerism in participants
in Milwaukee’s voucher program when compared to
public school students. 2016 Forster Report, supra, at
31. The study found the positive effect to be significantly stronger in religious schools than in other
private schools. Id.
Studies of the racial and ethnic composition of
private and public schools have also shown that school
choice improves integration. The study of integration
is not a perfect science, yet six out of seven studies
using a variety of methods of comparison have found
that school choice has a positive impact on integration,
while one study showed no effect. Empirical Research
on School Choice, supra, slide 36.
Over 165 years ago, Father John Bapst sought to
protect children in his community from being forced to
renounce their own religious faith in order to pursue
an education. Today, students in Maine eligible for
town tuition funding are being forced to choose between
availing themselves of generally available education
funding and the free exercise of their religious beliefs.
That this remains a substantial concern despite the
multiple and varied reasons school choice helps children,
as outlined above, is due in part to the persistent lack

24
of clarity about First Amendment constitutional protections in education. Father John Bapst would approve
of this Court taking this opportunity to clarify that
religiously neutral application of student-aid programs
is both permitted by the Establishment Clause and
required by the Free Exercise Clause.
CONCLUSION
For the foregoing reasons, the Petition for Writ of
Certiorari should be granted.
Respectfully submitted,
RUSSELL MENYHART
TAFT STETTINIUS &
HOLLISTER LLP
One Indiana Square
Suite 3500
Indianapolis, IN 46204
(317) 713-3500
rmenyhart@taftlaw.com

LESLIE HINER
Counsel of Record
EDCHOICE
111 Monument Circle
Suite 2650
Indianapolis, IN 46204
(317) 681-0745
leslie@edchoice.org

Counsel for EdChoice
March 11, 2021

